RESPONDENTS APPENDIX
TABLE OF CONTENTS
OPINIONS AND ORDERS
Order of the United States Court of Appeals for
the Sixth Circuit (July 27, 2020) ....................... 1a
Order of the United States District Court for the
Western District of Michigan Addressing
Motions and Dismissing the Case
(September 26, 2019).......................................... 9a
Restricted Access Order Issued by the United
States District Court for the Western District
of Michigan (October 4, 2019) .......................... 24a
Attachment to Restricted Access Order:
Letter from Otworth to Chief Judge Jonker
(October 1, 2019) .............................................. 27a
Attachment to Restricted Access Order:
Letter from Chief Judge Jonker to Otworth
(October 4, 2019) .............................................. 30a
OTHER DOCUMENTS
Notice of Hearing
(March 26, 2019) ............................................... 32a
Minutes of Hearing
(March 26, 2019) ............................................... 34a

Res.App.1a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT
(JULY 27, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
CLARENCE MATTHEW OTWORTH,

Plaintiff-Appellant,
v.
PNC BANK,

Defendant-Appellee.
________________________
No. 19-2188
On Appeal from the United States District Court
for the Western District of Michigan
Before: STRANCH, THAPAR,
and READLER, Circuit Judges.
Clarence Matthew Otworth, proceeding pro se,
appeals a magistrate judge’s order dismissing his
amended complaint filed pursuant to Title III of the
Americans with Disabilities Act (“ADA”), 42 U.S.C.
§ 12182, other federal statutes, and Michigan law.
This case has been referred to a panel of the court
that, upon examination, unanimously agrees that oral
argument is not needed. See Fed. R. App. P. 34(a).

Res.App.2a
Otworth alleges that he is in a wheelchair, cannot
walk, and had depended for years on an aide to shop
for him after cashing a check made payable to the
aide and drawn from Otworth’s PNC Bank (“PNC”)
account. PNC, however, began charging non-customers
a two percent check cashing fee and would not instead
cash Otworth’s check that was presented by the aide
but was made payable to Otworth. Frustrated by the
matter, Otworth filed suit on June 4, 2018, against
PNC for money damages pursuant to 42 U.S.C. § 1983
and state law. He moved for a default judgment and
attached copies of returns for summonses ostensibly
showing that PNC had been served twice—on June
19, 2018, as well as on July 30, 2018.
Before service of the July 30th summons and a
month before Otworth’s motion for a default judgment,
PNC moved to dismiss the complaint for failure to state
a claim. Otworth filed a response in opposition, and
PNC filed a reply. Otworth then tendered unauthorized
sur-replies that were stricken by the district court.
He next moved unsuccessfully for the appointment of
counsel who would appear at hearings and be paid by
him, but who would not prepare any documents.
A magistrate judge recommended denying Otworth’s motion for a default judgment, reasoning that
the June 19th summons had not been issued by the
district court and that PNC thus had not failed to
timely defend against the complaint. See Fed. R. Civ.
P. 55(a). As to PNC’s motion to dismiss, the magistrate
judge recommended that it be granted because Otworth
had failed to state a claim under § 1983 and state law.
Upon consideration of Otworth’s objections, the
district court denied Otworth’s motion for a default

Res.App.3a
judgment, granted PNC’s motion to dismiss, and
granted Otworth leave to file an amended complaint.
In his amended complaint, Otworth asserted that
PNC’s actions violated the ADA; the Rehabilitation Act,
see 42 U.S.C. § 12133; Title VI of the Civil Rights Act
of 1964, see 42 U.S.C. § 2000d et seq.; and the Uniform
Commercial Code. He thereafter moved for summary
judgment on the ground that PNC had conceded his
version of the facts by not responding to his request
for admission of facts served with the summons.
Otworth stated that he “waived” any hearing requiring
a personal appearance and requested that all hearings
be by telephone. He also moved to join Congress as a
defendant.
The magistrate judge set a scheduling conference
for March 26, 2019. Otworth and PNC filed a joint
status report, noting that Otworth would appear by
telephone and that the parties had consented to final
disposition by the magistrate judge. Unable to reach
Otworth on the day of the hearing despite several
attempts, the magistrate judge rescheduled the hearing
for April 9, 2019, and ordered Otworth to appear in
person or risk the dismissal of his case for lack of
prosecution.
In response, Otworth moved for recusal of the
magistrate judge, accusing him of bias toward pro se
plaintiffs and arguing that the magistrate judge “knew”
that Otworth could not appear in person and “want[ed]
an excuse for dismissing the case.” Otworth requested
that the court call him for the April 9th hearing and
explained that a defective telephone handset was being
replaced.

Res.App.4a
Shortly before the April 9th hearing was to commence, Otworth emailed PNC’s counsel, stating, “Tell
the Judge that Captel installed a new telephone in
my house yesterday. I will expect him to call me at
11:00 a.m.” The magistrate judge did not call Otworth
when he failed to appear in person.
Otworth subsequently filed motions to terminate
PNC’s counsel, impose sanctions against counsel, and
schedule a telephone conference. These motions were
followed by a second motion for recusal of the
magistrate judge. Chief Judge Jonker also placed in
the record letters from Otworth to Attorney General
William Barr seeking criminal prosecution of district
judges and the magistrate judge.
In a single order, the magistrate judge denied all
of Otworth’s motions and dismissed the action. The
court held that Otworth’s summary judgment motion
lacked any legal or factual basis. It also held that his
motion for joinder cited no authority for joining Congress, and that Congress was not a necessary party.
The motions for recusal were denied because the
magistrate judge had no bias against pro se litigants,
and the courthouse was accessible to wheelchair-bound
litigants. Additionally, the court noted that personal
appearance at a scheduling conference was beneficial
because a pro se litigant could learn the legal process,
resolve matters related to litigation, and consider
settlement. The court further held that the motions
to terminate counsel and impose sanctions, premised
on counsel’s mere denial of PNC’s liability, were
meritless. The motion to schedule a telephone conference, where Otworth again accused the magistrate
judge of bias, was denied for the same reasons as the
motions for recusal.

Res.App.5a
Finally, the magistrate judge dismissed Otworth’s
action as a sanction for failing to appear at the April
9th scheduling conference. See Fed. R. Civ. P. 16(f)(1).
Observing that Otworth’s defective telephone underscored the need for his personal appearance and that
his conduct throughout the litigation indicated a misunderstanding or disregard of the court’s rules, the
magistrate judge concluded that requiring Otworth to
appear in person was reasonable. But Otworth’s
persistent refusal to attend any hearings was not,
and dismissal was the only appropriate sanction.
On appeal, Otworth asserts that: (1) PNC’s checkcashing policies violated his rights under the ADA
and other laws; (2) the magistrate judge should have
recused himself; (3) the magistrate judge violated the
Fourteenth Amendment by refusing to schedule a
trial; and (4) the magistrate judge violated the ADA
by requiring him to appear in person.
We review for an abuse of discretion a district
court’s dismissal of a complaint due to a plaintiff’s
failure to comply with an order. Mager v. Wis. Cent.
Ltd., 924 F.3d 831, 837 (6th Cir. 2019).
Federal Rule of Civil Procedure 16(a) provides
that a court may order a pro se litigant to appear at
pretrial conferences. If a litigant “fails to obey a
scheduling or other pretrial order,” the district court
may impose sanctions, including dismissal of the action.
Fed. R. Civ. P. 16(f)(1)(C) (cross-referencing Fed. R. Civ.
P. 37(b)(2)(A)(ii)-(vii)). When contemplating whether
to dismiss an action, a court must consider:

Res.App.6a
(1) whether the party’s failure is due to
willfulness, bad faith, or fault; (2) whether
the adversary was prejudiced by the dismissed
party’s conduct; (3) whether the dismissed
party was warned that failure to cooperate
could lead to dismissal; and (4) whether less
drastic sanctions were imposed or considered
before dismissal was ordered.

Mager, 924 F.3d at 837 (quoting United States v. Reyes,
307 F.3d 451, 458 (6th Cir. 2002)).
The district court did not abuse its discretion.
First, Otworth willfully violated the magistrate judge’s
order requiring him to appear at the April 9th
scheduling conference. As Otworth had previously and
repeatedly indicated that he would participate only
by telephone, his conduct may be deemed contumacious,
i.e., “behavior that is perverse in resisting authority
and stubbornly disobedient.” Id. (quoting Carpenter
v. City of Flint, 723 F.3d 700, 705 (6th Cir. 2013)).
Contumacious behavior by itself may warrant dismissal. Id.
Second, PNC suffered prejudice from Otworth’s
failure to appear because PNC incurred unnecessary
time and resources in travelling to the court and
preparing for the hearing. See Schafer v. City of
Defiance Police Dep’t, 529 F.3d 731, 737 (6th Cir. 2008).
Third, the magistrate judge gave Otworth explicit,
written notice that his failure to appear could lead to
dismissal.
Fourth, the magistrate judge concluded that no
lesser sanction was available because Otworth could
not prosecute his case if he would not appear in court
or follow the court’s orders. This also supports the

Res.App.7a
magistrate judge’s decision to dismiss the complaint
pursuant to Rule 16(f)(1)(C). In any event, a failure
to expressly consider other sanctions “is not necessarily
an abuse of discretion.” Reyes, 307 F.3d at 458.
Otworth argues that the magistrate judge should
have recused himself because he is biased and corrupt.
Otworth further argues that the magistrate judge
violated the Fourteenth Amendment by refusing to
schedule a trial and violated the ADA by requiring
him to appear in person.
The magistrate judge did not err by refusing to
recuse himself under 28 U.S.C. § 455. Otworth’s assertion of bias is based on his dissatisfaction with the
magistrate judge’s decisions. Judicial rulings almost
never serve as a valid basis for recusal and almost
invariably are simply grounds for appeal. Liteky v.
United States, 510 U.S. 540, 555 (1994). Next, the
magistrate judge did not err by dismissing the case
prior to a jury trial. Prose plaintiffs are not automatically entitled to take a case to trial, see Pilgrim v.
Littlefield, 92 F.3d 413, 416 (6th Cir. 1996), and a
dismissal for failure to prosecute does not violate one’s
right to a jury trial. See Lewis v. Rawson, 564 F.3d
569, 575 n.7 (2d Cir. 2009). Last, the ADA does not
apply to any part of the federal government, including
the federal courts. See United States v. Snarr, 704
F.3d 368, 384 (5th Cir. 2013).
Because the district court dismissed Otworth’s
action for failure to prosecute, we need not reach the
merits of the claims brought in his complaint. See
Jourdan v. Jabe, 951 F.2d 108, 109-10 (6th Cir. 1991).

Res.App.8a
Accordingly, we AFFIRM the district court’s order.
ENTERED BY ORDER OF THE COURT
/s/ Deborah S. Hunt
Clerk

Res.App.9a
ORDER OF THE UNITED STATES
DISTRICT COURT FOR THE
WESTERN DISTRICT OF MICHIGAN
ADDRESSING MOTIONS AND
DISMISSING THE CASE
(SEPTEMBER 26, 2019)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
________________________
CLARENCE MATTHEW OTTWORTH,

Plaintiff,
v.
PNC BANK,

Defendant.
________________________
Case No. 1:18-cv-625
Before: Hon. Ray KENT,
United States Magistrate Judge.

Pro se plaintiff Clarence Matthew Ottworth filed
this action against PNC Bank. The parties consented
to have a United States Magistrate Judge conduct
any and all further proceedings in the case, including
trial and entry of final judgment. This matter is now
before the Court on a number of motions filed by
plaintiff.

Res.App.10a
I.

Background

Plaintiff filed this lawsuit demanding $1,000,
000.00 from defendant PNC Bank (PNC) on a variety
of theories. Compl. (ECF No. 1). The Court granted
defendant’s motion to dismiss and allowed the
plaintiff to re-plead. Order (ECF No. 27, PageID.118119). Plaintiff filed an amended complaint in which he
alleged: that he is in a wheelchair; that he cannot
travel to the bank to cash checks; that he sends his
Agent “to collect his money;” and that PNC’s refusal
“to hand over the money to the Agent of the payee”
violates the American with Disabilities Act, the Rehabilitation Act, and an implied private cause of action
under Title VI of the Civil Rights Act of 1964. Amend.
Compl. (ECF No. 28).
Prior to Rule 16 Scheduling Conference, plaintiff
filed a motion for summary judgment (ECF No. 31)
asking the Court to dismiss defendant’s answer to the
amended complaint, to grant his motion for summary
judgment, and to have “all hearing conducted by telephone” because he is disabled. Plaintiff also filed a
motion to join the United States Congress as a necessary party to this litigation because Congress enacted
the ADA, the Rehabilitation Act, and Civil Rights Act
of 1964 (ECF No. 32).
Plaintiff did not appear at the original scheduling
conference on March 26, 2019. See Minutes (ECF No.
37). It appears that the parties reached an agreement,
without the Court’s approval, that plaintiff would not
appear and that he “will be available by telephone”
on March 26th at 10:00 a.m. Joint Status Report (ECF
No. 34 PageID.149). Although the Court did not agree
to this procedure, the undersigned’s office attempted
to contact plaintiff six times between 10:00 a.m., but

Res.App.11a
received a recording that the call could not be completed as dialed. When plaintiff neither appeared nor
answered his telephone, the Court continued the scheduling conference until April 9, 2019, and sent plaintiff
a notice advising him that “HE MUST APPEAR IN
PERSON FOR THE CONFERENCE” and that
“PLAINTIFF’S FAILURE TO APPEAR MAY RESULT
IN HIS CASE BEING DISMISSED FOR LACK OF
PROSECUTION.” See Notice (ECF No. 36) (emphasis
in original).
Plaintiff sent the Court a “response” to the notice
stating that he could not place a telephone call into
the original Rule 16 conference because he had a
defective handset. Response (ECF No. 40-1). Plaintiff
included as exhibits a copy of a letter from his telephone company stating he had a defective handset
and a copy of his motion to recuse the undersigned
for bias and to order the Court to call him for the
April 9th scheduling conference. Plaintiff also filed a
“Motion to recuse Magistrate Judge Kent from this
civil action for bias” (ECF No. 39).
Plaintiff failed to appear at the April 9th Rule
16 Conference (see Minutes (ECF No. 41)). Shortly
before the hearing, plaintiff sent PNC’s counsel an
email stating, among other things, that “Tell the
Judge that Captel installed a new telephone in my
house yesterday. I will expect him to call me at 11:00
a.m.” (Recorded proceedings) (April 9, 2019).
After he failed to appear for the Rule 16 Conference, plaintiff commenced a litigation strategy based
upon removing PNC’s counsel and the trial judge
from this case, which included a motion for the Court
to terminate PNC’s counsel (ECF No. 42), a motion for
sanctions against PNC’s counsel (ECF No. 44), another

Res.App.12a
motion to recuse the undersigned (ECF No. 50), and a
motion for a “telephone scheduling conference” on his
terms (ECF No. 47). Plaintiff expanded his litigation
strategy to include the removal of other judges from
the Western District of Michigan, by sending letters
to the United States Attorney General to file a criminal
complaint against Judge Robert J. Jonker, Judge
Paul L. Maloney, and Magistrate Judge Ray Kent for
fraud and obstruction of justice because no scheduling
orders in his pro se lawsuits filed in this Court have
issued. Letter (ECF Nos. 49 and 50).
Based on his filings, plaintiff takes the position
that he can litigate this case from his home rather
than appear in Court, that he is exempt from the
Court’s rules regarding pleading and motion practice,
and that he can dictate the result of litigation: by
removing judges he does not like; by discharging the
attorneys who represent the adverse party; and by
removing judges through a letter writing campaign
directed to the United States Attorney General.
“Pro se litigants are required to follow the rules
of civil procedure.” Mooney v. Cleveland Clinic Foundation, 184 F.R.D. 588, 590 (N.D. Ohio 1999). A pro se
plaintiff “volitionally assumes the risks and accepts
the hazards which accompany self-representation.”
Graham-Humphreys v. Memphis Brooks Museum of
Art, Inc., 209 F.3d 552, 561 (6th Cir. 2000). “While
courts have historically loosened the reins for pro se
parties, the right of self-representation is not a
license not to comply with relevant rules of procedural
and substantive law.” Eagle Eye Fishing Corporation
v. United States Department of Commerce, 20 F.3d
503, 506 (1st Cir. 1994) (internal citations and quotation marks omitted). Thus, when a non-prisoner litigant

Res.App.13a
chooses to represent himself, “he should expect no
special treatment which prefers him over others who
are represented by attorneys.” Brock v. Hendershott,
840 F.2d 339, 343 (6th Cir. 1988).
II.

Motions
A. Plaintiff Failed to File Supporting Briefs

As an initial matter, plaintiff has failed to file
supporting briefs for any of his motions as required
by W.D. Mich. LCivR 7.1(a), which provides in pertinent
part that “[a]ll motions, except those made orally
during a hearing or trial, shall be accompanied by a
supporting brief” and that “[a]ll briefs filed in support
of or in opposition to any motion shall contain a
concise statement of the reasons in support of the
party’s position and shall cite all applicable federal
rules of procedure, all applicable local rules, and the
other authorities upon which the party relies.” While
this Court can deny his motions on that ground, it
will address the merits of the motions.
B. Motion for Summary Judgment
“The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to
any material fact and the movant is entitled to judgment as a matter of law.” Fed. R. Civ. P. 56(a). Rule
56 further provides that a party asserting that a fact
cannot be or is genuinely disputed must support the
assertion by:
(A) citing to particular parts of materials in the
record, including depositions, documents,
electronically stored information, affidavits or
declarations, stipulations (including those

Res.App.14a
made for purposes of the motion only), admissions, interrogatory answers, or other materials; or
(B) showing that the materials cited do not establish the absence or presence of a genuine
dispute, or that an adverse party cannot
produce admissible evidence to support the
fact.
Fed. R. Civ. P. 56(c)(1).
In Copeland v. Machulis , 57 F.3d 476 (6th Cir.
1995), the court set forth the parties’ burden of proof
in a motion for summary judgment:
The moving party bears the initial burden of
establishing an absence of evidence to support
the nonmoving party’s case. Once the moving
party has met its burden of production, the
nonmoving party cannot rest on its pleadings,
but must present significant probative evidence in support of the complaint to defeat
the motion for summary judgment. The mere
existence of a scintilla of evidence to support
plaintiffs position will be insufficient; there
must be evidence on which the jury could
reasonably find for the plaintiff.

Copeland, 57 F.3d at 478-79 (citations omitted). “In
deciding a motion for summary judgment, the court
views the factual evidence and draws all reasonable
inferences in favor of the nonmoving party.” McLean
v. 988011 Ontario Ltd., 224 F.3d 797, 800 (6th Cir.
2000).
Plaintiff has failed to present any legal or factual
basis to support his motion for summary judgment.

Res.App.15a
The only document filed in support of his motion is a
“Request for admission of facts” which is dated June
20, 2018, and plaintiff’s claim that he is entitled to
summary judgment because PNC admitted those facts
by failing to respond to the request. Contrary to
plaintiff’s theory, the request for admission is of no
effect because PNC was not a party in this litigation
when he mailed the request on June 20, 2018; PNC
did not enter its appearance until July 24, 2018. In
addition, plaintiff filed the request for admissions in
violation of Fed. R. Civ. P. 26(d), which provides in
pertinent part that “[a] party may not seek discovery
from any source before the parties have conferenced
as required by Rule 26(f), except in a proceeding
exempted from initial disclosure under Rule 26(a)(1)(B)
or when authorized by these rules, by stipulation, or
by court order.” Fed. R. Civ. P. 26(d)(1). For these
reasons, plaintiffs motion for summary judgment (ECF
No. 31) is DENIED.1
C.

Motion for Joinder

Plaintiff seeks to join the United States Congress
as a necessary co-plaintiff in this case. Plaintiff cites
no authority to support this attempt to join Congress
into his check-cashing dispute with PNC. While
Congress enacted the federal statutes which PNC
allegedly violated, Congress is not a necessary party
1 In a related matter, the Court notes that in his reply brief,
plaintiff stated that he “decided to drop” the lawsuit against PNC
at one time, but that now he demands a trial by jury and “if he
wins, he will expect the amount that he sued for, one million
dollars.” Reply (ECF No. 38, PagelD.159). Contrary to plaintiff’s
statement that he decided to drop the lawsuit, he did not file
any document requesting a voluntary dismissal of this action.

Res.App.16a
to plaintiff’s lawsuit against PNC. Plaintiff can obtain
complete relief against PNC under those statutes without having Congress as a co-plaintiff. See Fed. R. Civ.
P. 19(a)(1).2 Accordingly, plaintiff’s motion for joinder
(ECF No. 32) is DENIED.
D.

Motions for Recusal

Plaintiff has filed two motions to recuse the
undersigned as the trial judge in this case. The gist
of plaintiff’s first motion for recusal, which was filed
before the April 9, 2016 Rule 16 Conference, is that
“Judge Kent knows very well that it is impossible for
the plaintiff to appear in person because he cannot
walk” and that “Judge Kent just wants an excuse for
dismissing the case.” Motion to recuse (ECF No. 39).
In his second motion for recusal, filed on September
11, 2019, plaintiff stated that the undersigned “knew
or should have known that the plaintiff’s phone was
out of order when he [sic] tried to call him [sic] for the
Rule 16 scheduling conference on March 26, 2019”,
and that the undersigned should have not ordered
2 Fed. R. Civ. P. 19(a) provides in relevant part as follows:
“(1) Required Party. A person who is subject to
service of process and whose joinder will not deprive
the court of subject-matter jurisdiction must be joined
as a party if. (A) in that person’s absence, the court
cannot accord complete relief among existing parties;
or (B) that person claims an interest relating to the
subject of the action and is so situated that disposing
of the action in the person’s absence may: (i) as a
practical matter impair or impede the person’s ability
to protect the interest; or (ii) leave an existing party
subject to a substantial risk of incurring double,
multiple, or otherwise inconsistent obligations because
of the interest.”

Res.App.17a
plaintiff to appear in person. Motion to recuse (ECF
No. 50). Plaintiff repeats his statement that “Judge
Kent knew very well that it was impossible for the
plaintiff to appear in person because he cannot walk”
and that “Judge Kent just wanted an excuse for
dismissing the case.” Id.
The standard for recusal is an objective one:
“‘a judge must recuse [himself] if a reasonable,
objective person, knowing all of the circumstances, would have questioned the judge’s
impartiality.’” United States v. Sammons, 918
F.2d 592, 599 (6th Cir. 1990) (citation omitted). Petitioner’s mere subjective view does
not support disqualification. See id. (“[T]he
judge need not recuse himself based on the
‘subjective view of a party,’ no matter how
strongly that view is held.”) (citation omitted).
“[J]udicial rulings alone almost never constitute a valid basis for a bias or partiality
motion.” Liteky v. United States , 510 U.S.
540, 555, 114 S.Ct. 1147, 127 L.Ed.2d 474
(1994).

Taylor v. McKee, No. 1:14-cv-1284, 2015 WL 5593223
at *2 (W.D. Mich. Sept. 21, 2015).
Contrary to plaintiff’s contentions, the undersigned
has no personal knowledge on whether plaintiff is in
a wheelchair or whether plaintiff “cannot walk.”
Even if plaintiff requires a wheelchair, the federal
building is accessible to individuals with disabilities.
Individuals who require wheelchairs appear in both
civil and criminal proceedings in this courthouse.
Next, the undersigned is not biased against pro
se litigants. The undersigned handles motions in pro

Res.App.18a

se cases on a regular basis, has been the trial judge
in lawsuits brought by pro se plaintiffs, and has decided
Social Security Appeals filed by pro se plaintiffs. When
a pro se party such as plaintiff files a civil lawsuit,
the undersigned requires the pro se party to appear
in person at the scheduling conference. The Court
requires personal appearance for a number of reasons.
The Rule 16 scheduling conference sets out the framework for the entire case and gives the Court and the
parties an opportunity to meet in person and address
any number of matters related to the pending litigation.
Pro se plaintiffs benefit from familiarizing themselves
with the courthouse, the courtroom, the trial judge, and
the opposing party (or attorney). Typically, a number
of preliminary matters are resolved during the Rule
16 Conference which benefits all parties. The seeds of
a settlement are often planted at the Rule 16 Conference, and some parties reach tentative settlements
at that time. In addition, the undersigned utilizes the
Rule 16 Conference to explain the legal process to pro
se litigants so that they understand how to develop a
legal case for trial and what the Court expects of
litigants. For all of these reasons, plaintiff’s subjective
view that the undersigned is biased against pro se
litigants is unsupported. Accordingly, plaintiff’s motions
to recuse (ECF Nos. 39 and 50) are DENIED.
E.

Motion to Terminate Legal Representation Provided by Attorney Renner for Defendant PNC
Bank

In this motion, plaintiff asks the Court to terminate Attorney Jason Renner’s representation of PNC
Bank because Renner “deliberately lied in the Joint
Status Report” (ECF No. 42, PageID.173) (emphasis
omitted). The basis for plaintiff’s claim is that his

Res.App.19a
version of events as recited in the Joint Status Report
is correct, that PNC’s version of events “is a flat out
lie”, and that as a result of this lie, plaintiff’s motion
to terminate the legal representation of Attorney
Renner “must be granted, and substantial sanctions
must be imposed to discourage other attorneys from
lying.” Motion (ECF No. 42, PageID.174).
In its statement of the case, PNC denied that it
is liable to plaintiff.
Defendant’s View: Defendant denies that
its non-customer check cashing fee violates
the American with Disabilities Act, the
Rehabilitation Act of 1973, or any other law.
Defendant further denies Plaintiff has any
other colorable cause of action against it
arising out of its non-customer check cashing
fee.
Joint Status Report (ECF No. 34, PageID.150). Neither
PNC nor its attorney did anything wrong or sanctionable by stating PNC’s position. Plaintiff’s motion to
terminate PNC’s attorney (ECF No. 42) is frivolous
and DENIED.
F.

Motion for Sanctions

Plaintiff also seeks sanctions against Attorney
Renner pursuant to Fed. R. Civ. P. 11 for the alleged
“lies” in the Joint Status Report, i.e., “deliberately
lying to the plaintiff and the court that Defendant
PNC Bank did not violate the Americans with Disabilities Act of 1990 (ADA) by refusing to cash plaintiff’s
checks unless he presented his checks to the bank
himself or paid their check cashing fee.” Motion for
sanctions (ECF No. 44). As a procedural matter, plain-

Res.App.20a
tiff’s request for Rule 11 sanctions is improperly filed
because he failed to comply with the safe harbor provisions of Fed. R. Civ. P. 11(c)(2), i.e., “The [Rule 11]
motion must be served under Rule 5, but it must not
be filed or be presented to the court if the challenged
paper, claim, defense, contention, or denial is withdrawn or appropriately corrected within 21 days after
service or within another time the court sets.” The
Sixth Circuit “has expressly ruled that Rule 11 is
unavailable where the moving party fails to serve a
timely ‘safe harbor’ letter.” First Bank of Marietta v.
Hartford Underwriters Insurance Co., 307 F.3d 501,
510-11 (6th Cir. 2002).
Even if plaintiff had met the safe harbor requirement, his motion is without merit because neither PNC
nor its attorney engaged in sanctionable conduct. See
discussion, § II.D., supra. Accordingly, plaintiff’s motion
for sanctions (ECF No. 44) is DENIED.
G.

Motion for Scheduling Conference, or in the
Alternative Motion for Commencement of
Discovery

In this motion, plaintiff states that “[t]his matter
should have been disposed of in March [2019], but it
wasn’t because of the bias of the Magistrate Judge
Ray Kent against pro se litigant plaintiff Clarence
Otworth,” and plaintiff requests “that a telephone
scheduling conference be held as soon as possible, or
grant plaintiff’s alternative motion for commencement
of discovery.” Motion for scheduling conference (ECF
No. 47). This matter having come full circle, plaintiff
once again wants to litigate this case via telephone.
For the reasons discussed, plaintiff’s motion regarding

Res.App.21a
a scheduling conference and to commence discovery
(ECF No. 47) is DENIED.
In its notice of hearing issued on March 26,
2019, the Court advised plaintiff that the scheduling
conference would be held on April 9, 2019, at 11:00
a.m. and further advised plaintiff as follows:
CONTINUATION OF RULE 16 SCHEDULING CONFERENCE SET FOR MARCH
26, 2019, AT 10:00 A.M. PLAINTIFF IS
NOTIFIED THAT HE MUST APPEAR IN
PERSON FOR THE CONFERENCE.
PLAINTIFF’S FAILURE TO APPEAR MAY
RESULT IN HIS CASE BEING DISMISSED
FOR LACK OF PROSECUTION.
Notice (ECF No. 36) (emphasis in original). As discussed, plaintiff failed to appear in person as ordered
by the Court.
Since commencing this lawsuit, plaintiff has filed
meritless motions. As discussed, plaintiff did not
attend the March 26th Rule 16 Conference and did
not seek the Court’s permission to attend by telephone.
When plaintiff failed to appear, the Court could not
reach him because his telephone was apparently out
of order. The fact that plaintiff has a defective telephone underscores the Court’s requirement that he
appear in person. When the Court adjourned the
Rule 16 Conference until April 9th, the Court made
clear to plaintiff that he had to appear in person. In
this regard, the Court was aware of plaintiff’s past
conduct which indicated that he either misunderstood
or disregarded Court rules, e.g.: plaintiff’s improper
attempts to serve PNC; plaintiff’s improper attempt
to secure a default judgment against PNC; plaintiff’s

Res.App.22a
filing of improper “sur-reply” briefs (ECF Nos. 10 and
11); plaintiff’s legally deficient claims set forth in the
original complaint; plaintiff’s statement that he
unilaterally “waived” personal appearance for a hearing
on his summary judgment motion; plaintiff’s request
that all hearings be conducted by telephone; and, plaintiff’s frivolous motion to join Congress as a plaintiff in
this action.
In short, the Court’s requirement that plaintiff
attend the April 9th Rule 16 Conference in person was
reasonable. Plaintiff has made it clear that he will
not attend any Court hearings. It is patently unreasonable for a pro se plaintiff to file a lawsuit, claim that
he cannot attend any court proceedings, and then
expect this Court to conduct all pre-trial matters, all
motions, and the trial via telephone. The Court cannot
adjudicate a lawsuit when the plaintiff refuses to
enter the courthouse.
Fed. R. Civ. P. 16(a) provides that:
In any action, the court may order the attorneys
and any unrepresented parties to appear for one
or more pretrial conferences for such purposes as:
(1) expediting disposition of the action;
(2) establishing early and continuing control so
that the case will not be protracted because
of lack of management;
(3) discouraging wasteful pretrial activities;
(4) improving the quality of the trial through
more thorough preparation; and
(5) facilitating settlement.

Res.App.23a
Fed. R. Civ. P. 16(a)(1)-(5). Plaintiff has refused to
attend a pretrial conference as directed by the Court.
The Court may issue sanctions if a party “fails to
appear at a scheduling or other pretrial conference.”
Fed. R. Civ. P. 16(f)(A). Sanctions may include “dismissing the action or proceeding in whole or in part.”
Fed. R. Civ. P. 16(f)(1), citing Fed. R. Civ. P. 37(b)(2)(v).
In this instance, the Court advised pro se plaintiff
that his action may be dismissed if he failed to
appear at the April 9, 2019, scheduling conference.
This Court cannot adjudicate a plaintiff’s claim if the
plaintiff refuses to appear in court when ordered.
Plaintiff is steadfast in his position that he can
litigate this case at home over the telephone. Plaintiff
cannot prosecute his case if he will not appear in
Court or follow the Court’s orders. Under the facts of
this case, there is no lesser sanction that the Court
can consider than to dismiss plaintiff’s lawsuit.
Accordingly, this case is DISMISSED.
IT IS SO ORDERED.
/s/ Ray Kent
United States Magistrate Judge
Dated: September 26, 2019

Res.App.24a
RESTRICTED ACCESS ORDER ISSUED BY THE
UNITED STATES DISTRICT COURT FOR THE
WESTERN DISTRICT OF MICHIGAN
(OCTOBER 4, 2019)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
________________________
CLARENCE MATTHEW OTWORTH,

Plaintiff,
v.
PNC BANK,

Defendant.
________________________
Case No. 1:18-CV-625
HON. RAY S. KENT
________________________
CLARENCE OTWORTH,

Plaintiff,
v.
FIFTH THIRD BANK, ET AL.,

Defendants.
________________________

Res.App.25a
Case No. 1:19-CV-55
HON. PAUL L. MALONEY
________________________
CLARENCE OTWORTH,

Plaintiff,
v.
TONY MOULATSIOTIS, ET AL.,

Defendants.
________________________
Case No. 1:19-cv-621
HON. PAUL L. MALONEY
Before: Robert J. JONKER
Chief United States District Judge.
Plaintiff Otworth has three pro se cases on the
docket of the Western District of Michigan. The undersigned is not the assigned Judicial Officer in any of
the cases, but plaintiff continues to write, presumably
because of the undersigned’s current role as Chief
Judge of the District. The undersigned has previously
informed plaintiff of the administrative limits of the
Chief Judge role, and further advised plaintiff of the
impropriety of ex parte communications, in any event.
This has not stopped the flow of correspondence.
The Court wrote plaintiff on October 1, 2019, in response to plaintiff’s September 24, 2019, submission.
On October 4, 2019, the Court received a new submission from plaintiff in a mailing postmarked October 2,
2019. The submission makes the same basic claims

Res.App.26a
about the Judicial Officers assigned to each of his
cases, but in more strident and vulgar tones. And the
submission makes the same demands on the undersigned for relief that is outside the scope of the office
of Chief Judge.
The Court is again writing to plaintiff to repeat
the same explanations previously provided. And the
Court will again direct a filing of the exchange of
correspondence on the record of each case to ensure a
compete archive of communications. This time the
filing will be on a restricted access basis to avoid
further burdening the public record with irrelevant
and increasingly profane assertions from plaintiff.
IT IS SO ORDERED.
/s/ Robert J. Jonker
Chief United State District Judge
Dated: October 4, 2019

Res.App.27a
ATTACHMENT TO RESTRICTED ACCESS
ORDER: LETTER FROM CLARENCE OTWORTH
TO CHIEF JUDGE JONKER
(OCTOBER 1, 2019)
CLARENCE OTWORTH
187 East Daniels Road
Twin Lake, MI 49457
(231) 292-1205
_______________________________________
Case No: 1:19-cv-55
Hon. Paul Lewis Maloney
_______________________________________
Mr. Robert J. Jonker, Chief Judge
United States District Court
685 Federal Building
110 Michigan Street, NW
Grand Rapids, MI 49503
Re: Magistrate Judge Raymond Kent
Dear Mr. Jonker:
Please take notice that on the accompanying
pleading—“Plaintiff’s Response to CMDA Response
Opposing Plaintiff’s Motion for Summary Judgment”—
the name Phillip J. Green appears as the current
Magistrate Judge—that is because I received a pleading from the Michigan Department of Attorney General
and it listed Phillip J. Green as the Magistrate Judge.
I assumed that you came to your senses and recused
that bias corrupt piece of shit, but you didn’t! I
received a letter from Raymond Kent today which,
for all intensive purposes, he dismissed by lawsuit
against Fifth Third Bank, et al., Why? Because, in

Res.App.28a
my demand that he be recused—I demanded that all
three of my lawsuits be set for trial, because Raymond
Kent had not ordered a scheduling conference in
my first case, Otworth v. PNC Bank 1:18-cv-625,
since I filed the case on June 04, 2018, 482 days ago.
Raymond Kent had not ordered a scheduling conference in my second case, Otworth v. Fifth Third Bank, et
al., 1:19-cv-55, since I filed the case on January 02,
2019, 270 days ago. And Raymond Kent had not
ordered a scheduling conference in my third case,
Otworth v. Tony Moulatsiotis, et al., 1:19-cv-621, since
I filed the case on August 01, 2019, 61 days ago.
According to Rule 16 (b)(2) of the Federal Rules of Civil
procedure, “The Judge must issue the scheduling
order as soon as practicable, but unless the judge
finds good cause for delay, the judge must issue it
within the earlier of 90 days after any defendant has
been served with the complaint or 60 days after any
defendant has appeared.” Magistrate Judge Raymond
Kent, the puppet of every law firm in Michigan, found
a damn good cause for delay—the defendants attorneys, in the law firms of Dinsmore & Shohl; Mika
Myers; CMDA; Plunkett Cooney; Williams, Hughes
& Cook, and Michigan’s Department of Attorney
General, representing defendants Governor Gretchen
Whitmer, Attorney General Dana Nessel, and Assistant Attorney General Samantha Reasner, DO NOT
WANT DISCOVERY! I urge you to recuse Raymond
Kent, and rescind his Order of September 26, 2019,
“that plaintiff’s motion to commence discovery and
postpone decisions in this case (Otworth v. Fifth Third
Bank, et. al, 1:19-cv-55 Judge Paul Lewis Maloney
/Magistrate Judge Ray Kent) is DENIED.” And SET
ALL THREE CASES FOR JURY TRIAL—as I declared

Res.App.29a
I wanted when I filed each case, and that I am entitled
to receive as an American citizen!
Govern Yourself Accordingly,
/s/ Clarence Otworth
cc: William Pelham Barr
cc: Christopher Asher Wray
cc: Donald John Trump

Res.App.30a
ATTACHMENT TO RESTRICTED ACCESS
ORDER: LETTER FROM CHIEF JUDGE JONKER
TO MR. OTWORTH
(OCTOBER 4, 2019)
UNITED STATES DISTRICT COURT
FOR THE WESTERN DISTRICT OF MICHIGAN
685 Gerald R. Ford Federal Building
110 Michigan Street, NW
Grand Rapids, Michigan 49503
_______________________________________
Mr. Clarence Otworth
187 East Daniels Road
Twin Lake, MI 49457
Re: Otworth v. Fifth Third Bank, et al.
Case No. 1:19-CV-55-PLM
Dear Mr. Otworth:
I received your letter postmarked October 2, 2019.
This case is assigned to my colleague, the Honorable
Paul Maloney. I am copying Judge Maloney on this
exchange of correspondence.
As the current Chief Judge of the District, I
have certain administrative responsibilities added to
my regular case load, but I have no authority whatsoever to review the judicial decisions of my colleagues
in cases assigned to them. If you continue to believe
you are entitled to any kind of judicial relief, you
must follow the appropriate rules and procedures for
litigating those issues before the Judicial Officer
assigned to your case—in this instance the Honorable
Paul L. Maloney.

Res.App.31a
The Court cannot communicate with you substantively regarding the issues in your case. Nor can we
deal with any issues regarding your case in the
absence of a properly filed motion. Any motion in the
case must be served on counsel for all parties in the
case. I will again direct the Clerk to file a copy of the
exchange of correspondence on the record of each
case to ensure a compete archive of communications.
Sincerely,
/s/ Robert J. Jonker
Chief United States District Judge
RJJ/ymc
cc: Hon. Paul L. Maloney

Res.App.32a
NOTICE OF HEARING
(MARCH 26, 2019)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
________________________
CLARENCE MATTHEW OTWORTH,

Plaintiff,
v.
PNC BANK,

Defendant.
________________________
Case No. 1:18-cv-00625-RSK
Before: Hon. Ray KENT,
United States Magistrate Judge.
TAKE NOTICE that a hearing has been scheduled as
set forth below:
Type of hearing(s): Scheduling Conference
Date/Time: April 9, 2019 11:00 AM
Magistrate Judge: Ray Kent
Place/Location:
584 Federal Building, Grand Rapids, MI
CONTINUATION OF RULE 16 SCHEDULING
CONFERENCE SET FOR MARCH 26, 2019, AT 10:00
A.M. PLAINTIFF IS NOTIFIED THAT HE MUST

Res.App.33a
APPEAR IN PERSON FOR THE CONFERENCE.
PLAINTIFF’S FAILURE TO APPEAR MAY RESULT
IN HIS CASE BEING DISMISSED FOR LACK OF
PROSECUTION.
Ray Kent
U.S. Magistrate Judge
By: /s/ Faith Hunter Webb
Judicial Assistant
Dated: March 26, 2019

Res.App.34a
MINUTES OF HEARING
(MARCH 26, 2019)
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF MICHIGAN
MINUTES
Case No: 1 :18-cv-625-RSK
Caption: Otworth v. PNC Bank
Date: March 26, 2019
Time: 10:32-10:47 a.m.
Place: Grand Rapids
Magistrate Judge: Hon. Ray Kent

APPEARANCES
Plaintiff
Counsel:
Pro Se
Representing: Clarence Matthew Otworth
DID NOT APPEAR
Defendant
Counsel:
Jason M. Renner PNC Bank
Representing: PNC Bank

Res.App.35a
PROCEEDINGS
NATURE OF HEARING:
Ominbus hearing; date and time set for Rule 16
Scheduling Conference; pro se plaintiff was to appear
by telephone; the Court was unable to reach plaintiff;
Rule 16 scheduling conference to be rescheduled and
plaintiff to appear in person.

Proceedings Digitally Recorded
Deputy Clerk: S. Carpenter

